                            CTOR
                      SPE          GE
                 IN                     N
             F                              E
         O                                      R
     E




                                                A
 C




                                                    L
FI
OF




                                                        OFFICE OF INSPECTOR GENERAL
                                                             EXPORT-IMPORT BANK
                                                              of the UNITED STATES




            FISCAL YEAR 2011
         INFORMATION SECURITY
             PROGRAM AND
            PRACTICES AUDIT


                                                                     December 19, 2011
                                                                        OIG-AR-12-02
Office of Inspector General            Export-Import Bank
                                       of the United States


December 19, 2011


MEMORANDUM




TO:                 Fernanda Young
                    Chief Information Officer

FROM:               Jean Smith
                    Assistant Inspector General for Audit

SUBJECT:            Fiscal Year 2011 Information Security Program and Practices Audit
                    (OIG-AR-12-02, December 19, 2011)

This memorandum transmits Cotton & Company LLP’s report on the results of the subject audit.
Under a contract monitored by this office, we engaged the independent firm of Cotton &
Company LLP to evaluate security controls over information, as well as to determine if Ex-Im
Bank met Federal Information Security Management Act requirements. The contract required the
audit to be performed in accordance with Government Auditing Standards, 2007 Revision, as
amended.

The Fiscal Year 2011 Information Security Program and Practices Audit report addresses issues
associated with the security of information at Ex-Im Bank. For that reason, we are not making
the report available on-line, but it may be available under the Freedom of Information Act.

We appreciate the courtesies and cooperation provided to the auditors during the audit. If you
have any questions, please call me at (202) 565-3944.


cc:
Fred P. Hochberg, Chairman and President
Michael Cushing, Senior Vice President – Resource Management
Alice Albright, Executive Vice President and Chief Operating Officer
John Lowry, Director, Information Technology Security and System Assurance
David Sena, Acting Senior Vice President – Chief Financial Officer and Audit Liaison
Patricia Wolf, Financial Reporting Supervisor


                  811 Vermont Avenue, N.W. Washington, D.C. 20571
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
